            Peace Corps
            Office of Inspector General




PC/Ethiopia office in Addis Ababa                      Castle in Gonder, Ethiopia




                                    Flag of Ethiopia




                         Final Audit Report:
                        Peace Corps/Ethiopia
                               11-02-A

                                                                   February 2011
                                    EXECUTIVE SUMMARY

We found that Peace Corps/Ethiopia’s (hereafter, the post’s) financial and administrative
operations and its compliance with agency policies and federal regulations required
improvement. We noted deficiencies in three of the five internal control standards of the
Government Accountability Office: standards requiring a control environment, control activities,
and effective monitoring. Internal control is an essential component of an organization’s
framework to detect and prevent waste, fraud, abuse, and mismanagement.

Many issues noted in this report occurred prior to the arrival of the present country director (CD)
and administrative officer (AO). Some of the more important findings are summarized below.

Imprest Fund Management
Managerial oversight over the imprest fund was inadequate. We found that during one 13-month
period, the prior CD performed only one verification, and another quarterly verification was
missed in spring of 2009. Moreover, for five separate months during the audit period, no
verifications were performed. In addition, the AO’s verifications did not include a complete
review of reconciling documents and their proper recording on the cash reconciliation statement.
Further, staff members did not settle their interim cash advances in a timely manner. Timely and
complete verifications and ongoing monitoring of interim advances are essential internal control
procedures over the post’s most liquid asset.

Leases
All six of the post’s leases contained discrepancies. Although payment was made in local
currency, the lease payment terms were stated in both local currency and U.S. dollar equivalents
or, for one lease, in U.S. dollars only. Because of hyper-inflation and a significant devaluation
of the Ethiopian birr, landlords requested option period payment increases using the U.S. dollar
amounts in the leases, resulting in substantially higher lease costs. In addition, the correct lease
template was not used for three of the six leases, and two residential leases did not have required
regional director approval. Further, the CD signed the lease for her residence.

Volunteer Allowances
Although the 2009 living allowance survey was properly performed, both living allowances
surveys conducted in 2008 were inadequate, and no conclusions were drawn on the allowance’s
sufficiency. In addition, the post’s 2008 settling-in survey was sent to Volunteers but the
responses were not compiled and evaluated. Further, independent price surveys were not
performed for both the 2008 and 2009 settling-in surveys. Timely and proper Volunteer
allowance surveys are particularly important due to the hyper-inflation experienced in the
country.

Property Management
We found property, including a video camera, two pieces of medical equipment and 15 satellite
phones that were not recorded in the post’s inventory database. In addition, the AO’s required
quarterly reconciliation of property inventory against receiving reports and requisition


Final Audit Report: Peace Corps/Ethiopia                                                               i
documents was not performed, to determine if inventory changes were properly reflected. The
above deficiencies made the post’s property vulnerable to loss or misuse.

Vehicles Management
Post management provided inadequate oversight over vehicle usage. During a 19-month period,
except for about three weeks, only the general services officer (GSO) reviewed and initialed the
vehicle usage logs. Required reviews by the AO and the billing officer were not performed.
Post vehicle logs were incomplete and in some cases illegible. As a result, log reviews were
limited in their effectiveness.

Medical Supplies
The post began implementing the agency’s November 2008 revision of its medical supplies
policy the month before the audit. We found inaccuracies in the post’s records resulting from
dispensed drugs not reflected in the medical supply inventory log. In addition, the CD did not
submit the log annually to the Office of Medical Services for review, as required. The reliability
of medical inventory information is critical in making appropriate and cost-effective inventory
ordering decisions; ensuring that supplies in required quantities are on hand to treat the
Volunteers; and providing accountability.

President’s Emergency Plan for AIDS Relief
The post received grants under the President’s Emergency Plan for AIDS Relief (PEPFAR)
program for HIV/AIDS-related small projects executed by Volunteers at their sites. The
administrative unit did not compare the receipts submitted by Volunteers with the approved
project budgets. Further, Volunteers did not always submit receipts as required. In addition,
Volunteers were requested to submit their budgets in U.S. dollars, even though the funds
ultimately received by Volunteers were in local currency, complicating control over actual
project costs. The exchange rates used by Volunteers to convert their budgets into U.S. dollars
were sometimes different than the rates used by the post to reconvert U.S. dollars into local
currency funds. Additionally, at the date of the audit, the post’s records showed $4.2 million of
PEPFAR funds authorized and unused from prior year requests.

Administrative Staff
The present AO, who arrived at the post in late September 2008, has brought stability to the
administrative function. Despite a difficult period where six AOs, including four on temporary
duty status, served in that capacity, the dedicated administrative staff continued to function
cohesively in support of post operations.

Our report contains 26 recommendations, which, if implemented, should strengthen internal
controls and correct the deficiencies detailed in the accompanying report.




Final Audit Report: Peace Corps/Ethiopia                                                            ii
                                                          TABLE OF CONTENTS

EXECUTIVE SUMMARY ............................................................................................................. i

BACKGROUND .......................................................................................................................... 1

AUDIT RESULTS ....................................................................................................................... 1
     A. ASSESSMENT OF INTERNAL CONTROL ....................................................................................................... 2

     B. IMPREST FUND MANAGEMENT ................................................................................................................... 3

     C. LEASES....................................................................................................................................................... 4

     D. VOLUNTEER ALLOWANCES ....................................................................................................................... 7

     E. PROPERTY MANAGEMENT ......................................................................................................................... 9

     F. VEHICLES MANAGEMENT ........................................................................................................................ 10

     G. MEDICAL SUPPLIES ................................................................................................................................. 11

     H. IT SECURITY ........................................................................................................................................... 13

     I. PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF ................................................................................. 14


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE ............................................. 16

LIST OF RECOMMENDATIONS ............................................................................................... 17

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY ..................................................... 19

APPENDIX B: LIST OF ACRONYMS ........................................................................................ 20

APPENDIX C: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT ....................... 21

APPENDIX D: OIG COMMENTS ............................................................................................. 35

APPENDIX E: AUDIT COMPLETION AND OIG CONTACT ..................................................... 37
                                           BACKGROUND
The Office of Inspector General conducted an audit of PC/Ethiopia March 22 – April 16, 2010.

The Peace Corps commenced its program in Ethiopia in 1962 and approximately 3,000
Volunteers have served there. The program was suspended between 1977 and 1995, and again in
2000 due to security concerns during the war between Ethiopia and Eritrea. Peace Corps
returned to Ethiopia in 2007. At the time of our visit, 76 Volunteers were engaged in one project
area, Health – HIV/AIDS. The present CD arrived at the post in December 2008, and the present
AO arrived in late September 2008.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations were functioning effectively and complied with Peace Corps policies
and federal regulations during the period under audit. Appendix A provides a full description of
our audit objective, scope, and methodology.


                                           AUDIT RESULTS
We found that PC/Ethiopia’s financial and administrative operations required improvement in a
number of areas and did not fully comply with agency policies and federal regulations. For
example, we found that the post did not:

        Establish an adequate and effective system of internal control to prevent and detect waste,
        fraud, and abuse
        Exercise proper managerial oversight over the imprest fund.
        Properly prepare leases
        Conduct appropriate living and settling-in allowance surveys including market basket and
        independent price surveys
        Maintain effective internal control over property inventory and keep accurate inventory
        records
        Oversee vehicle usage in accordance with agency policy
        Fully implement the agency’s medical supplies inventory policy and keep accurate
        medical supplies inventory records
        Establish adequate controls and procedures over HIV/AIDS-related small projects

During the period April – September 2008, the administrative function was overseen by four
temporary duty AOs. Many issues noted in this report occurred prior to the arrival of the present
CD and AO.




Final Audit Report: Peace Corps/Ethiopia                                                         1
A. ASSESSMENT OF INTERNAL CONTROL

1. Internal control at the post was deficient.

“Standards for Internal Control in the Federal Government” issued by the Government
Accountability Office (hereafter, GAO Standards) stipulates five standards which “define the
minimum level of quality acceptable for internal control in government … These standards apply
to all aspects of an agency’s operations: programmatic, financial, and compliance.”

Peace Corps Manual (PCM) section 784.3.0 reinforces the GAO requirement for adequate and
effective internal control, as follows:
        Internal control should be an integral part of the entire cycle of planning, budgeting,
        management, accounting and program execution. Internal control applies to program,
        operational and administrative areas as well as accounting and financial management.
         Monitoring the effectiveness of internal control should occur in the normal course of
        business.

We found weaknesses in compliance with three of the five control standards:
        Control environment, which requires “a positive and supportive attitude toward internal
        control and conscientious management.” A positive control environment is the
        foundation for other internal control standards as it provides an appropriate climate and
        structure so that the organization may function effectively and efficiently.
        Control activities, which are “the policies, procedures, techniques, and mechanisms that
        enforce management’s directive … They include a wide range of diverse activities such
        as approvals, authorizations, verifications, reconciliations, performance reviews,
        maintenance of security, and the creation and maintenance of related records, … physical
        control over vulnerable assets, and segregation of duties .…”
        Monitoring, which states that “ongoing monitoring occurs in the course of normal
        operations. It includes regular management and supervisory activities .…”

The post’s non-compliance with the above internal control standards was an underlying cause for
many findings in this report. We found control vulnerabilities in critical areas such as imprest
fund management, property inventory, vehicles, and medical supplies.

Adequate internal control, according to the GAO Standards, “serves as the first line of defense in
safeguarding assets and preventing and detecting errors and fraud.” Having strong internal
controls in place, including effective supervision and oversight, would strengthen post
operations.




Final Audit Report: Peace Corps/Ethiopia                                                          2
                 We recommend:

                 A.1.1 That the country director and administrative officer
                       strengthen the post’s internal control environment,
                       activities, and monitoring in a manner that will safeguard
                       assets and prevent and detect waste, fraud, and abuse.


B. IMPREST FUND MANAGEMENT

1. Post management’s oversight of the imprest fund was inadequate.

Overseas Financial Management Handbook (OFMH) section 13.2.1 states: “The Country
Director, as the Post Manager, has responsibility for imprest management because of the use of
cash and the consequent potential for internal control problems.”

The policy enumerates specific responsibilities of the CD, which include “ensuring that an
unannounced, monthly verification of the imprest fund is conducted … It should be conducted
quarterly by the Country Director, and in the remaining months it may be delegated to the
Administrative Officer.”

Further, OFMH section 13.24.1 states: “The verification includes a complete reconciliation, with
a cash count and verification of supporting documents for all balances on the 365 (line by line)
and completion of the Checklist for Verifying Officers.”

Management’s oversight of the imprest fund was inadequate. During one 13-month period, the
prior CD performed only one imprest fund verification. Additionally, for five separate months
during the audit period, no verification at all was performed. Further, the AO’s imprest fund
verifications did not include a complete review of reconciling documents and their proper
recording on the cash reconciliation statement.

Managerial oversight of the imprest fund is an essential internal control over the post’s most
liquid asset and is required to effectively safeguard the fund and detect and prevent inadvertent
errors and fraud.

                 We recommend:

                 B.1.1 That the country director ensure proper quarterly imprest
                       fund verifications including a review of supporting
                       documents for all balances on the cash reconciliation
                       statement.




Final Audit Report: Peace Corps/Ethiopia                                                            3
2. Staff did not clear their interim cash advances in a timely manner.

OFMH section 13.18.2 requires that interim cash advances be “liquidated (accounted for) within
three (3) working days.” The policy further states: “It is the responsibility of the cashier to
monitor the clearance of interim advances and to notify the Administrative Officer if advances
are not cleared within 3 days for direct follow-up action.”

We found that staff did not consistently clear their interim advances in a timely manner. Eleven
of the 24 monthly imprest fund reconciliations between October 2007 and February 2010 had
delinquent interim cash advances. These were not consistently brought to the attention of the
AO for direct follow-up action. Comments on the accompanying “Monthly Checklist for
Verifying Officer” ranged from “Need to follow up,” to “Measures being taken to reconcile
advances,” yet the problem persisted throughout the period under audit. The comment for one
month incorrectly responded, “Yes,” to a question whether interim cash advances were being
liquidated timely.

Clearing interim advances in a timely manner ensures a prompt return of unused funds and a
prompt accounting for funds spent.

                 We recommend:

                 B.2.1 That the administrative officer remind post staff of the
                       requirement to their interim cash advances within three
                       working days.

                 B.2.2 That the cashier monitor interim advances and notify the
                       administrative officer if advances are not cleared within
                       three working days.

                 B.2.3 That the administrative officer monitor the status of
                       outstanding interim advances in order to ensure that they
                       are cleared within the required time period.

                 B.2.4 That the verifying officer report uncleared interim cash
                       advances on the “Monthly Checklist for Verifying Officer.”


C. LEASES

1. The post’s leases contained deficiencies.

PCM section 733 and OFMH section 30 provide policy and guidance on the preparation and
content of leases. Leases are particularly important as they represent a significant in-country
expenditure.




Final Audit Report: Peace Corps/Ethiopia                                                          4
The post had a lease for the office and five leases for U.S. direct hire residences. We found
deficiencies in all six leases. For five of the six leases, the annual amounts were stated in both
local currency and U.S. dollar equivalents. For the remaining lease, the annual amounts were in
U.S. dollars only. U.S. dollars were included on the leases despite the fact that payment was in
local currency. For two of the leases, the Office of Acquisitions and Contract Management
(OACM) specifically questioned the inclusion of U.S. dollars during its review. The policy and
overseas support manager at OACM, in a memo to the CD and the AO regarding the CD’s
residential lease, stated: “Please update Clause V [the clause showing lease payments for the
base and the four option years] with only the LCU [local currency] amounts.” However, we
found that the leases had not been adjusted by the post to reflect OACM’s comment.

Because of hyper-inflation in Ethiopia and a significant devaluation of the Ethiopian birr,
landlords requested, at the time of lease option renewals, to have their payments adjusted to
reflect the U.S. dollar amounts in the leases at the current exchange rates. The AO explained the
situation in a July 22, 2009 email to the Africa region’s financial management officer: “So when
landlords see a USD [U.S. dollar] amount in the lease, they are now opting for payment in
USD.” The AO in a July 29, 2009 email clarified that “…it is not legal to pay in USD….” Thus,
he continued, “our only legal option is to issue a check in LCU at the exchange rate when we
exercise the option. This will mean that we will need the extra funds to cover the exchange rate
difference between MYR [mid-year review] and now.” The result was a substantial
unanticipated increase in actual lease payments.

Two of the five residential leases with annual payments over $20,000 did not have on file the
required regional director approval. Also, a certificate of acceptance indicating the date that the
lease was to be effective, was not on file for one lease.

Adhering to agency policy and procedures, as well as recommendations by the OACM, is
essential to properly and accurately prepare leases and to effectively execute and control them on
an ongoing basis.

                 We recommend:

                 C.1.1 That the post follow Peace Corps lease policy in the
                       preparation of leases.

                 C.1.2 That the post comply with contract recommendations of the
                       Office of Acquisitions and Contract Management.


2. The CD signed the lease for her own residence.

PCM section 515.4.0 states: “All leases shall be signed by the Country Director as the Peace
Corps Contracting Officer, or someone delegated that authority by the Country Director.”
However, OFMH 30.1 provides that “Staff may not sign the leases for residences which they
will personally occupy, nor may they approve payment vouchers for their residences, due to the
GC [General Counsel] ruling that this could present a potential conflict of interest. Leases must



Final Audit Report: Peace Corps/Ethiopia                                                          5
be signed by another direct hire employee, with delegated procurement authority.”
Additionally, the Federal Acquisition Regulation (FAR) part 3, subpart 3.1, section 3.1.1-1
states: “The general rule is to avoid strictly any conflict of interest or even the appearance of a
conflict of interest in Government-contractor relationships.”

The CD signed the lease for the residence she was to occupy. Prior to her signing the lease, the
post sent it to OACM for review. The memorandum response from OACM’s policy and
overseas support manager to the CD and AO delegated additional approval authority and raised
technical issues regarding the lease but had no comment regarding the lease signatory. In
accordance with OFMH section 30.1, the AO also requested and obtained approval of the lease
from the acting regional director because the annual rent was over $20,000.

Despite the apparent contradiction between the PCM and the OFMH, both the acting chief
acquisition officer and the general counsel opined that the Peace Corps Manual was controlling
and that the CD had the legal authority to sign residential leases. The acting chief acquisition
officer determined that ratification, which is defined in FAR part 1, subpart 1.602-3 as “the act of
approving an unauthorized commitment by an official who has the authority to do so,” was not
warranted. However, she also stated that the appearance of a conflict of interest is contrary to
the FAR and not in the best interest of the Peace Corps. Further, from an internal control
standpoint, PCM section 784.3.0 (b) requires that “Funds, property, and other assets are
safeguarded against waste, loss, unauthorized use or misappropriation.” In line with this
requirement, the individual who is the beneficiary of the housing should not be the one
committing the agency by signing the lease document. Moreover, OFMH section 30.1 suffers
from a lack of internal control by requiring that another direct hire employee at the post, who
reports to the country director, sign the country director’s residential lease.

According to the Office of General Counsel (OGC), the “GC ruling” on a potential conflict of
interests was actually an informal email response to a query from the director of the Office of
Global Accounts Payable (OGAP) regarding the appropriateness of CDs “signing the leases
involving their own living quarters.” The OGC email stated, “This would be a serious concern,
since the lease directly affects his/her benefits.”1 OGAP included OGC’s email guidance as part
of the OFMH policy. The GC informed us that his office is reconsidering the appropriateness of
the original email guidance and reviewing the language included in the OFMH. Because the
leased U.S. government property in question would presumably be used and enjoyed by
subsequent CDs, there is a question as to whether the benefits or perceived benefits of occupancy
of the residence would be primarily realized by the government or by the CD. Moreover, the
Standards of Ethical Conduct for Employees of the Executive Branch (5 C.F.R. Part 2635),
issued by the Office of Government Ethics (OGE), which outlines circumstances that may result
in an actual or perceived conflict of interest, do not directly address this situation. As a result,
the GC informed us that OGC intended to seek from OGE a formal advisory opinion, in
accordance with 5 C.F.R. 2638.301-313.




1
 OGC’s advice was sought and provided on June 15, 2007.The query related to OGAP’s “reviewing internal
practices, to assure they are appropriate” and had no relation to this particular lease situation.


Final Audit Report: Peace Corps/Ethiopia                                                                 6
                 We recommend:

                 C.2.1 That the Office of General Counsel obtain a formal opinion
                       from the Office of Government Ethics on the question of
                       whether a staff member can sign a lease for a residence that
                       they will occupy.

                 C.2.2 That the Office of General Counsel, in consultation with
                       the Office of Acquisitions and Contract Management and
                       the Office of the Chief Financial Officer, review and update
                       as needed the agency’s lease guidance in the Peace Corps
                       Manual and the Overseas Financial Management
                       Handbook and that the revised guidance take into account
                       internal control requirements.


D. VOLUNTEER ALLOWANCES

1. The post did not complete the 2008 living allowance survey and evaluate the allowance’s
adequacy.

PCM section 221.5.1 states that “Volunteers are entitled to a living allowance in order that they
may serve effectively and safely overseas.” Living allowance surveys are the principal means by
which a post verifies that the allowance is adequate and, if not, determines an appropriate
adjustment. Timely and properly performed surveys are critical in a hyper-inflationary economy
such as Ethiopia’s to ensure that the allowance reflects the current living needs of the Volunteers.

Several Peace Corps policies provide guidance with respect to living allowance survey
requirements:

PCM section 221.5.7.3 states: “Increases or decreases to the base living allowance must be based
on the findings of the Volunteer living allowance survey, as supported by the market basket
survey.”

PCM section 221.5.7.2 states: “To verify living allowance survey submissions, a market basket
survey shall be conducted by staff .… The market basket survey is to be used as a guide to
validate the cost data on the living allowance survey submissions.”

Further, PCM section 221.5.7.1 states: “The [living allowance] survey data should represent
costs in a typical month and include item name, quantity, unit, and cost.”

The two living allowance surveys the post conducted in 2008 were incomplete. The responses to
the initial survey were annulled by the TDY AO “due to a low response rate … and inconclusive
results.” A second, condensed survey, which was developed by Volunteers rather than the post
and agreed to by the prior CD, was inappropriate. It consisted of a single page and was


Final Audit Report: Peace Corps/Ethiopia                                                         7
unrepresentative of total costs in a typical month because it surveyed only food and a few supply
items. Moreover, the Volunteers’ responses were not compiled, and no conclusion was drawn.
Further, a market basket survey was not performed. As a consequence, no determination was
made by the post regarding the adequacy of the living allowance. The post performed a correct
living allowance and related market basket survey in 2009. Accordingly, no recommendation is
being made.

2. The post did not complete its 2008 settling-in allowance survey nor perform independent
price surveys in 2008 and 2009.

At the conclusion of pre-service training, newly sworn-in Volunteers are given a settling-in
allowance to provide for their needs when arriving at their sites. PCM section 221.3.1 states that
the allowance is for the purchase of “necessary housing supplies and equipment.”

To verify that the allowance is adequate, PCM section 221.4.2 requires that the post conduct
Volunteer settling-in surveys and related independent price surveys.

The post did not complete the 2008 settling-in allowance survey. The post distributed the
settling-in survey forms to new Volunteers but did not compile and evaluate the results.
Moreover, the post did not perform independent price surveys in 2008 and 2009 to support the
results of Volunteer surveys.

Volunteers rely upon the post to provide them with adequate allowances, which are mandated by
section 2504 of the Peace Corps Act of 1961, as amended. Properly conducted settling-in
allowance surveys help ensure that the allowance is adequate.

                 We recommend:

                 D.2.1 That the post conduct complete settling-in allowance
                       surveys, including independent price surveys, compile and
                       analyze the Volunteer responses and conclude as to the
                       allowance’s adequacy.


3. The post did not always send timely e-mail notifications to headquarters of departing
Volunteers.

Peace Corps policy requires that the post notify headquarters of departing Volunteers within 24
hours of their close of service (PCM section 223.12.1) or early termination (PCM section
223.4.2) dates. We found that six of the 35 notifications we reviewed were sent from two to 51
workdays after the Volunteer’s departure. Four of the six late instances occurred during the
TDY period. The AO told us that he is personally handling the notifications to ensure that they
are done on time.

Timely notification permits headquarters to promptly perform Volunteer processing, collect any
amounts due the agency, and expedite release of the readjustment allowances.



Final Audit Report: Peace Corps/Ethiopia                                                          8
                 We recommend:

                 D.3.1 That the post send e-mail notifications to headquarters
                       within 24 hours of Volunteers’ close of service or early
                       termination dates.


E. PROPERTY MANAGEMENT

1. The post’s internal controls and procedures over property inventory were inadequate, and
some property was not recorded in the post’s records.

The GAO Standards state: “An agency must establish physical control to secure and safeguard
vulnerable assets .... Such assets should be periodically counted and compared to control
records.” The GAO Standards assert that “… control activities help to ensure that all
transactions are completely and accurately recorded.”

PCM section 511.6.1 requires that “the Administrative Officer reconcile the inventory against
receiving reports and requisition forms at least once a quarter.”

The post’s internal controls and procedures over property inventory were inadequate. Our
testing of the property inventory database identified post property that was not reflected in the
database. In the case of a video camera, which was being used outside the office, there was no
record of the asset in the property database and no document showing sign-out by the user. In
effect, the asset was off the post’s records.

Two pieces of equipment located in the medical unit, an electrocardiogram machine and a
combination optomoscope and autoscope, were neither tagged nor in the inventory database.
Further, one cell phone was unaccounted for; the general services manager (GSM) told us that
this was an untagged cell phone maintained in his office.

In addition, the post’s 15 satellite phones were not recorded in the inventory database. The
listing of the IT specialist, who was responsible for controlling the satellite phones, included nine
of 15 phones. He told us that his listing had not been updated for six phones that were returned
to the office while he was on leave. The AO maintained a separate listing that showed the correct
number of phones. However, his listing contained an incorrect tag number for one phone, and
we noted that another phone was not tagged. During the course of the audit, the AO took
possession of the phones for safekeeping, locking them in his office.

Internal control procedures such as maintaining an accurate and complete property inventory
database; updating it for changes on an ongoing basis; performing periodic reconciliations during
the year; and conducting physical inventory verifications and investigating discrepancies are
important steps in protecting property from waste, fraud, and abuse.




Final Audit Report: Peace Corps/Ethiopia                                                            9
Unrecorded assets, such as those noted above, represent a serious condition because the assets
are particularly vulnerable. Without appropriate controls in place, and without accurate and
reliable inventory data, property could well go missing or could be diverted.


                 We recommend:

                 E.1.1 That the post ensure that all property is recorded in the
                       property inventory database in accordance with agency
                       policy (including affixing tags to property needing them)
                       and that post update the property inventory database for
                       changes on an ongoing basis.

                 E.1.2 That the administrative officer oversee a review of invoices
                       for the last two years to ensure that all acquired post
                       property has been recorded.

                 E.1.3 That the administrative officer reconcile the inventory
                       against receiving reports and requisition forms at least
                       quarterly.


F. VEHICLES MANAGEMENT

1. Management oversight over vehicle usage required improvement.

Vehicles represent the agency’s single most significant owned assets at a post, and their
maintenance and utilization is a major operating cost. The significance of the agency’s vehicle
investment and the opportunity for waste, fraud, or abuse in vehicle utilization make oversight by
post management critical.

PCM section 527.5.4 requires that the AO, the staff member responsible for initiating vehicle
repairs or maintaining the vehicle records, and the staff member responsible for billing
authorized non-official vehicle use review, initial, and date the vehicle usage logs weekly.
Further, PCM section 527, Attachment A, provides a standard vehicle usage log form.

We found that management oversight of vehicle usage by reviewing log activity was
inconsistent. During a 19-month period, except for about three weeks, only the general services
manager (GSM) reviewed and initialed the logs; required reviews by the AO and the billing
officer were not performed. Further, for periods when the GSM was on leave, no review of the
logs took place.

Also, the post did not use the standard vehicle usage log form in the PCM. The AO told us that
the form in use was an old form that had been placed in operation before his arrival at the post.
Most notably, the post’s form did not include a “purpose of trip” column. Further, on several
occasions “Various” was placed in the destination column. Without specific destination and


Final Audit Report: Peace Corps/Ethiopia                                                         10
purpose of trip information, an informed review would not be possible. For example, we noted
four trips between the post and the U.S. embassy during one four-day period, of 14, 15, 21, and
26 kilometers. Without details regarding the trips’ purpose, it was uncertain if the differences in
kilometers between the same two points represented valid official use of the vehicles. The
variations should have prompted questions during the log review process.

Moreover, we noted one situation where the ending kilometer balance of one log page did not
agree with the beginning balance on the next page. The difference appeared to be a posting
error, but it appeared to have not been noted during the log review. In addition, some log pages
were illegible, complicating the log review. We also noted that the driver’s name was not always
filled in. Such data establishes accountability and facilitates follow-up.

Finally, authorization was not on file for the personal usage of post vehicles by two U.S. direct
hire employees in 2008. Authorizations were, however, on file for similar personal usage in
2009.

Review and oversight of the post’s vehicle usage logs are important internal control procedures
to ensure that the vehicles are being used appropriately and reduce the potential for waste, fraud,
and abuse.

                 We recommend:

                 F.1.1 That all required staff members review, initial, and date the
                       vehicle usage logs weekly and investigate unusual or
                       questionable postings.

                 F.1.2 That the post use the appropriate vehicle usage log.

                 F.1.3 That the administrative officer advise staff of the
                       importance of completing all requested information in the
                       vehicle usage logs and ensure that all the information is
                       being provided.


G. MEDICAL SUPPLIES

1. The post did not fully implement the agency’s medical supplies inventory policy.

PCM section 734 specifies the post’s requirements relating to medical supplies inventory. The
policy was revised in November 2008 to strengthen internal control over medical supplies.

PCM section 734.3.5 delineates overall control objectives and responsible parties. It states:

        The CD and PCMO [Peace Corps Medical Officer] share the responsibility to maintain effective control
        over medical supplies …. Assurance that effective controls are in place is achieved through maintaining
        appropriate segregation of duties, accurate record keeping, secure storage, and periodic inventories.




Final Audit Report: Peace Corps/Ethiopia                                                                          11
PCM section 734.3.5.1 states:

        The MSIC [Medical Supply Inventory Control] Clerk must maintain an accurate and complete set of
        inventory records for all medical supply items that are specially designated or controlled substances
        (Medical Inventory Control Log).

This policy section further states that “… the PCMO must maintain records on the dispensing
and disposal of these items.” Attachment D to the policy provides a “Record of Medical
Supplies Dispensed” form to be completed by the PCMO.

In addition, PCM section 734.3.5.3 (c) states:

        Annually, the Medical Inventory Control Log must be signed by the CD and be submitted to OMS for
        review. The annual requirement for CD sign-off the inventory of specially designated medical supplies and
        controlled substances will assess inventory on hand as of March 31 and is due to OMS by April 15 each
        year.

The post did not begin implementing the agency’s medical supplies policy, which was issued in
November 2008, until the month prior to the audit. In February 2010, the post established a
medical inventory control log under control of the GSM, who was designated the MSIC clerk.

However, the post did not implement a dispensed inventory form. Rather, the medical unit
maintained its record of drugs dispensed to Volunteers on a listing pasted to its drug cabinet and
did not provide dispensing information to the MSIC clerk for updating the records. As discussed
in H.2, we noted discrepancies between our test counts and the medical inventory control log,
principally due to unrecorded dispensed drugs.

Further, the CD did not sign and submit to OMS the medical inventory control log as of March
31 and due by April 15 annually. The log and is an important tool in OMS’ review and oversight
of post medical supplies.

Accurate and complete inventory records and prompt reporting to OMS are important to
effectively control medical supplies. Strong internal controls and procedures are required to
prevent theft, abuse, or misuse.

                 We recommend:

                 G.1.1    That the post fully implement the agency’s policy on
                          medical supplies inventory.


2. Discrepancies existed between the medical supplies inventory and the related records.

PCM section 734.3.5 states: “Assurance that effective controls are in place is achieved through
… accurate record keeping ….”

The post did not keep current, accurate, and complete medical inventory records. We noted
discrepancies between the medical supplies on hand and the post’s records. As discussed in H.1,


Final Audit Report: Peace Corps/Ethiopia                                                                        12
the discrepancies were principally due to the non-recording in the MSIC’s records of drugs
dispensed to Volunteers.


                             Discrepancies in Medical Supplies Inventory
Drug                 Drug Quantity in Log                Auditor's Drug Count                  Difference
Drug A               23 strips                           20 strips                             3 strips1
Drug B               172 tablets                         138 tablets                           34 tablets2
Drug C               76 units                            79 units                              3 units3
Drug D               5 units                             4 units                               1 unit1
1.
   Dispensing not recorded.
2.
   Twelve tablets were dispensed on three separate occasions but not recorded in the log. Two tablets were
unaccounted for.
3.
   The beginning inventory balance and the dispensed inventory posting were both incorrect.


Accuracy in the recording of medical supplies and timeliness in the updating of the inventory
records are essential in detecting and preventing waste, fraud, and abuse. Further, the reliability
of medical inventory information is critical in making correct and cost-effective inventory
ordering decisions and ensuring that the medical unit has the appropriate items and quantities of
medical supplies on hand to effectively treat Volunteers.

                 We recommend:

                 G.2.1 That the post conduct a complete physical inventory of
                       medical supplies in accordance with agency policy and
                       update the inventory records accordingly.

                 G.2.2 That the post record medical supplies received and
                       dispensed to Volunteers on an ongoing basis using the
                       required forms.


H. IT SECURITY

1. Staff did not complete computer use forms.

PCM section 542, Attachment A provides a “User Verification Form” to be completed by staff.
The form confirms that the user has read and will abide by the IT security rules of behavior.

We found that while the IT specialist had obtained User Verification Forms from the Volunteers,
he had not obtained them from the staff. These forms are important in order to document staff
members’ awareness of computer usage rules and regulations and agreement to comply with
them.




Final Audit Report: Peace Corps/Ethiopia                                                                     13
Subsequent to the audit, the IT specialist informed us that he had obtained computer use forms
from the staff, and he sent us examples of the forms received. Accordingly, no recommendation
is being made.


I. PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF

1. PEPFAR small project funding controls and procedures were inadequate.

The post had grants, authorized under PEPFAR, called Volunteer Activities, Support, and
Training (VAST), for small HIV/AIDS-related projects to be performed by Volunteers in their
communities. During our review, we noted a number of deficiencies in controls and procedures
over these grants.

The administrative unit did not compare the receipts submitted by Volunteers with the approved
project budgets, to verify that the expenditures were in line with the project as planned and
approved. Furthermore, Volunteers did not always submit receipts as required.

Volunteers were requested to provide their budgets on the project proposal form in U.S. dollars,
even though the funds to be received were in local currency. Moreover, the exchange rates used
by Volunteers to convert their local currency budgets into U.S. dollars were sometimes different
than the rates used by the post to request the local currency funds. As a result, it was uncertain if
the local currency amounts provided to Volunteers were in line with project needs.

The post did not systematically monitor the status of the projects during their implementation
stage. Monitoring would include maintaining contact with Volunteers while projects are being
performed and, on a judgment basis, visiting such projects during and subsequent to
implementation. The post has recognized the need for such monitoring and has requested
approval from the Africa region for a new position, grants project coordinator, whose
responsibilities would include overseeing the project process from conception to completion.

Additionally, some documents for a particular project were maintained in the programming unit,
while other documents were maintained in the administrative unit. The filing system
complicated the post’s oversight and control to ensure that all aspects of a project were
completed.

Implementing effective internal controls over the project process would help ensure that the
projects are conceived, approved, implemented, and closed out in an effective and efficient
manner.

                 We recommend:

                 I.1.1    That the post establish internal controls and procedures
                          over the Volunteer Activities, Support, and Training
                          (VAST) grant process to ensure that projects are conceived,




Final Audit Report: Peace Corps/Ethiopia                                                           14
                          approved, implemented, and closed out effectively and
                          efficiently.

                 I.1.2    That the post have Volunteers prepare and submit their
                          project budgets in local currency.

                 I.1.3    That the post monitor project implementation.

                 I.1.4    That the administrative unit compare the final accounting
                          for Volunteer Activities, Support and Training (VAST)
                          funds, including receipts, with the project budget and
                          follow up discrepancies.


2. The post needs to determine how its carryover PEPFAR funds will be used.

At the date of the audit, the post’s records showed $4.2 million of PEPFAR funds authorized and
unused from prior year requests. These funds may be used in future years. The post needs to
determine, in consultation with the region and the headquarters Office of AIDS Relief, how it
will cost-effectively maximize the use of these funds on a timely and ongoing basis.

                 We recommend:

                 I.2.1    That the country director, in consultation with the region
                          and the Office of AIDS Relief, determine how it will best
                          maximize the use of its carryover President’s Emergency
                          Plan for AIDS Relief (PEPFAR) funds.




Final Audit Report: Peace Corps/Ethiopia                                                     15
                             QUESTIONED COSTS AND
                          FUNDS TO BE PUT TO BETTER USE
We identified funds to be put to better use, during the course of the audit. They are discussed in
the accompanying audit report and noted below. (Amounts are in U.S. dollars or U.S. dollar
equivalents of Ethiopian birr (EB) at the rate of $1 equals 13.5 EB.) We did not identify any
questioned costs.


                                    Funds to be Put to Better Use


Recommendation
                                                   Description                                   Amount
    number
                       Unanticipated additional lease costs in fiscal year 2010
                       because of increases requested by landlords based on the
        C.1                                                                                     $82,000*
                       U.S. dollar amounts or equivalents in the leases, due to
                       hyper-inflation and the devaluation of the local currency.
* Calculated as the approximate difference between the local currency amount per the lease (or, for the U.S. dollar-
denominated lease, the local currency amount using the base year’s exchange rate) and the local currency amount
actually paid to the landlord.




Final Audit Report: Peace Corps/Ethiopia                                                                           16
                              LIST OF RECOMMENDATIONS

We recommend:

    A.1.1 That the country director and administrative officer strengthen the post’s internal
          control environment, activities, and monitoring in a manner that will safeguard assets
          and prevent and detect waste, fraud, and abuse.

    B.1.1 That the country director ensure proper quarterly imprest fund verifications including
          a review of supporting documents for all balances on the cash reconciliation
          statement.

    B.2.1 That the administrative officer remind post staff of the requirement to clear their
          interim cash advances within three working days.

    B.2.2 That the cashier monitor interim advances and notify the administrative officer if
          advances are not cleared within three working days.

    B.2.3 That the administrative officer monitor the status of outstanding interim advances in
          order to ensure that they are cleared within the required time period.

    B.2.4 That the verifying officer report uncleared interim cash advances on the “Monthly
          Checklist for Verifying Officer.”

    C.1.1 That the post follow Peace Corps lease policy in the preparation of
          leases.

    C.1.2 That the post comply with contract recommendations of the Office of Acquisitions
          and Contract Management.

    C.2.1 That the Office of General Counsel obtain an opinion from the Office of
          Government Ethics on the question of whether a staff member can sign a lease for a
          residence that they will occupy.

    C.2.2 That the Office of General Counsel, in consultation with the Office of Acquisitions
          and Contract Management and the Office of the Chief Financial Officer, review and
          update as needed the agency’s lease guidance in the Peace Corps Manual and the
          Overseas Financial Management Handbook and that the revised guidance take into
          account internal control requirements.

    D.2.1 That the post conduct complete settling-in allowance surveys, including independent
          price surveys, compile and analyze the Volunteer responses and conclude as to the
          allowance’s adequacy.




Final Audit Report: Peace Corps/Ethiopia                                                          17
    D.3.1 That the post send e-mail notifications to headquarters within 24 hours of Volunteers’
          close of service or early termination dates.

    E.1.1 That the post ensure that all property is recorded in the property inventory database in
          accordance with agency policy (including affixing tags to property needing them) and
          that post update the property inventory database for changes on an ongoing basis.

    E.1.2 That the administrative officer oversee a review of invoices for the last two years to
          ensure that all acquired post property has been recorded.

    E.1.3 That the administrative officer reconcile the inventory against receiving reports and
          requisition forms at least quarterly.

    F.1.1 That all required staff members review, initial, and date the vehicle usage logs weekly
          and investigate unusual or questionable postings.

    F.1.2 That the post use the appropriate vehicle usage log.

    F.1.3 That the administrative officer advise staff of the importance of completing all
          requested information in the vehicle usage logs and ensure that all the information is
          being provided.

    G.1.1 That the post fully implement the agency’s policy on medical supplies inventory.

    G.2.1 That the post conduct a complete physical inventory of medical supplies in
          accordance with agency policy and update the inventory records accordingly.

    G.2.2 That the post record medical supplies received and dispensed to Volunteers on an
          ongoing basis using the required forms.

    I.1.1    That the post establish internal controls and procedures over the Volunteer
             Activities, Support, and Training (VAST) grant process to ensure that projects are
             conceived, approved, implemented, and closed out effectively and efficiently.

    I.1.2    That the post have Volunteers prepare and submit their project budgets in local
             currency.

    I.1.3    That the post monitor project implementation.

    I.1.4    That the administrative unit compare the final accounting for Volunteer Activities,
             Support, and Training (VAST) funds, including receipts, with the project budget and
             follow up discrepancies.

    I.2.1    That the country director, in consultation with the region and the Office of AIDS
             Relief, determine how it will best maximize the use of its carryover President’s
             Emergency Plan for AIDS Relief (PEPFAR) funds.



Final Audit Report: Peace Corps/Ethiopia                                                           18
APPENDIX A

                   OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal
regulations. Our audit conclusions are based on information from three sources: (1) document
and data analysis, (2) interviews, and (3) direct observation. Our audits are conducted in
accordance with the government auditing standards prescribed by the Comptroller General of the
United States.

The audit of PC/Ethiopia covered fiscal years 2008, 2009, and 2010 through February 28, 2010.
While at the post, we interviewed key staff including the CD, the AO, staff responsible for
administrative support, and the U.S. PCMO. A number of local staff requested that the post
initiate a training and development program to strengthen their current job skills and to learn new
skills. We also interviewed Volunteers to obtain their views on the effectiveness of the post’s
administrative and financial systems in supporting them. Volunteers told us that they
appreciated the interest shown by the staff in their success and well-being. As part of the audit
process, we briefed the CD and AO. At headquarters, we conducted a general briefing for
regional staff.

We relied on computer-processed data from the post’s accounting system. While we did not test
the system’s controls, we believe the information generated by the system and used by us was
sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace Corps
Manual, the Overseas Financial Management Handbook, federal regulations, and current Peace
Corps policies and initiatives.




Final Audit Report: Peace Corps/Ethiopia                                                         19
APPENDIX B

                                       LIST OF ACRONYMS


  AO                      Administrative Officer*
  CD                      Country Director
  GAO                     Government Accountability Office
  GC                      General Counsel
  GSM                     General Services Manager
  MSIC                    Medical Supply Inventory Control
  OACM                     Office of Acquisitions and Contract Management
  OFMH                    Overseas Financial Management Handbook
  OGE                     Office of Government Ethics
  OIG                     Office of Inspector General
  OMS                     Office of Medical Services
  PC                      Peace Corps
  PCM                     Peace Corps Manual
  PCMO                    Peace Corps Medical Officer
  PEPFAR                  President’s Emergency Plan for AIDS Relief
  PSC                     Personal Services Contractor
  TDY                     Temporary Duty
  VAST                    Volunteer Activities, Support, and Training
  * Name subsequently changed to Director of Management and Operations




Final Audit Report: Peace Corps/Ethiopia                                    20
APPENDIX C

  MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT




Final Audit Report: Peace Corps/Ethiopia            21
APPENDIX D

                                           OIG COMMENTS

Management concurred with 25 recommendations and did not concur with one recommendation.
We closed 18 recommendations: A.1.1, B.1.1, B.2.1, B.2.2, B.2.3, B.2.4, C.1.1, C.1.2, D.2.1,
D.3.1, E.1.1, F.1.1, F.1.2, F.1.3, I.1.1, I.1.2, I.1.3, I.2.1. We left open 8 recommendations: C.2.1,
C.2.2, E.1.2, E.1.3, G.1.1, G.2.1, G.2.2, I.1.4. These recommendations remain open pending
confirmation from the chief compliance officer that the following has been received:

        For recommendation C.2.1, a copy of a formal opinion from the Office of Government
        Ethics on the question of whether a staff member can sign a lease for a residence that
        they will occupy.

        For recommendation C.2.2, documentation that a review of the agency’s lease guidance
        in the Peace Corps Manual and the Overseas Financial Management Handbook was
        conducted and such guidance was updated as needed, and that the revised guidance takes
        into account internal control requirements.

        For recommendation E.1.2, documentation that the administrative officer has overseen a
        review of invoices for the last two years to ensure that all acquired post property has been
        recorded.

        For recommendation E.1.3, documentation that the administrative officer has performed
        the required property inventory reconciliation at least quarterly.

        For recommendation G.1.1, documentation that the post has fully implemented the
        agency’s policy on medical supplies inventory.

        For recommendation G.2.1, documentation that the post has conducted a complete
        physical inventory of medical supplies and updated the inventory records.

        For recommendation G.2.2, documentation that the post is using the required form to
        record medical supplies received and dispensed to Volunteers.

        For recommendation I.1.4, documentation that the post is comparing the final accounting
        of Volunteer Activities, Support, and Training (VAST) funds, including receipts, with the
        project budget.

While we closed recommendation B.1.1, we would like to note that the OFMH requirement to
review all documents, including closed bureau vouchers appearing on the cash reconciliation
statement, is based on the State Department regulation in the Foreign Affairs Manual, section
4FAH-3 H-397.1-3, “Procedures for Verification of Operating Cash Advance,” that all paid
receipts (subvouchers) on hand be reviewed as part of the verification. In addition, we would
like to note that, per the cashier’s records, required monthly verifications for January and July



Final Audit Report: Peace Corps/Ethiopia                                                            35
APPENDIX D
2009 were not conducted; the headquarters overseas cashier liaison confirmed that she had not
received verifications for these months.

For recommendation D.2.1, with which management did not concur, we have accepted
management’s response and have closed the recommendation. We continue to believe that
because the settling-in allowance is a commitment of agency funds and directly affects Volunteer
well-being, an independent survey is an important management tool “to provide verification of
price trends and support the analysis of the Volunteer survey [MS 221.4.2],” regardless of the
percentage of the increase.

In their response, management described actions they are taking or intend to take to address the
issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the region or post has taken these actions nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.




Final Audit Report: Peace Corps/Ethiopia                                                           36
APPENDIX E

                   AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION                           Senior Auditor Steven Kaffen performed the audit of Peace
                                           Corps/Ethiopia.




                                           Bradley Grubb, CPA
                                           Assistant Inspector General for Audit


OIG CONTACT                                If you wish to comment on the quality or usefulness of this
                                           report to help us strengthen our product, please email Bradley
                                           Grubb, Assistant Inspector General for Audit, at
                                           bgrubb@peacecorps.gov, or call him at (202) 692-2914.




Final Audit Report: Peace Corps/Ethiopia                                                                37
         REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and mismanagement related to
Peace Corps operations domestically or abroad. You can report
allegations to us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  800.233.5874
               Washington Metro Area:              202.692.2915


Fax:           202.692.2901

Email:         oig@peacecorps.gov
